No. 20-58

In the Supreme Court of the United States
ANITA SMITH,
Petitioner,
v.

VESTAVIA HILLS BOARD OF EDUCATION,
Respondent.

CERTIFICATE OF COMPLIANCE WITH RULE 33.2(b)

I, Mark S. Boardman, counsel for the Respondent, Vestavia Hills Board of
Education, hereby certify that, according to the pagination tool in WordPerfect, the
Brief in Opposition to Petition for Writ of Certiorari consists of 16 pages, including
footnotes and excluding the sections enumerated by Rule 33.2(b). The Brief therefore
complies with Rule 33.2(b).

/s/ Mark S. Boardman
Mark S. Boardman
Counsel of Record
Katherine H. Watkins
BOARDMAN , CARR , PETELOS,
WATKINS & OGLE , P.C.
400 Boardman Drive
Chelsea, AL 35043
(205) 678-8000
mboardman@boardmancarr.com
khortberg@boardmancarr.com
Counsel for Respondent

